tq - 311
No.
IN THE

Supreme Court of tfje SSutteb States*
Davis et, al,
on behalf of himself and all
Petitioners’ Members
Petitioner(s)
V.
Bank of America Corporation N.A et, al.
Respondents

On Petition for A Writ of Certiorari
United States Court of Appeals for The Seventh Circuit
PETITION FOR WRIT OF CERTIORARI

[Additional Petitioners and Respondents
Listed on Inside Cover]

RECEIVED
SEP 1 0 2019

1
1.

QUESTIONS PRESENTED
The Pro Se Petitioners were unequivocally
deprived of all their "Constitutional Rights".
Seven Petitioners were wrongfully denied the
right to file forma pauperis pursuant to 28 U.S.C.
§ 1915.Congress enacted 28 U.S.C. § 1915(a) to
Enable Plaintiffs who could not afford the costs
of litigation to bring civil lawsuits.
The questioned asked? Do pro se litigants have any
“CONSTITUTIONAL RIGHTS”

2
ii

PARTIES TO THE PROCEEDINGS
Petitioners:
Steven E. Davis
Steven Segura
Zdzislaw Krajewski
Cheryl Bell
Peggy L. Strong
Elizabeth Robinson
Louis G. Bartucci
Geraldine Blanton
Cheryl M. Malden
Denise Woodgett
Jeffrey Sanders
Mack Glover
Yvonne Singleton
Dennis F. and Susan R. Martinek
Darryl and Ann Coney-Bell
Emmauel S. and Connie C. Bansa
Ralph E. and Joan M. Holley
Ulsen and Georgia Anderson

3
ill

Respondents:
Bank of America Corporation
Bryan Cave Leighton Paisner LLP
Atty: Jena M. Valdetero
Robert W. Brunner
MERS and Merscorp Inc.
K &L Gates LLP
Atty: Andrew C. Glass
Gregory N. Blase
Citigroup Inc., HSBC Bank USA, N.A.
Wells Fargo & Co.
Mayer Brown LLP
Atty: Lucia Nale
Thomas V. Panoff
Christopher S. Comstock
Tyler Alfermann
Michelle V. Dohra
U.S. Bank Trust National Association
and Irina Dashevsky
Locke Lord LLP
Atty: Ryan M. Holz
SunTrust Banks Corp.
Pilgrim Christakis LLP
Atty: Jeffrey D. Pilgrim
Carter B. Stewart
Chase Manhattan Bank a/k/a
JP Morgan Chase
Morgan, Lewis & Bockius LLP
Atty: Megan R. Braden
Kenneth M. Kliebard

5
IV.

TABLE OF CONTENTS
QUESTIONS PRESENTED

1

PARTIES TO THE PROCEEDINGS

11

TABLE OF AUTHORITIES
CASES..................................
STATUES AND RULES

inl

PETITION FOR WRIT CERTIORARI.....\fl/t
OPINIONS
JURISDICTION
RULE INVOLVED

\Jl/(
Dili
/ill

STATEMENT OF THE CASE
ARGUMENT

M

CONTITUTIONAL RIGHTS
CONCLUSION

lJ

6
v.

APPENDIX: SEE “PART TWO”
APPENDIX A: OPINION, Final Judgment of the
Seventh Circuit of Appeals
(March 14, 2018)
APPENDIX B: Opinion of the Seventh Circuit of
Appeals (March 5, 2018)
APPENDIX C: Order of the Northern District Court
Northern dismissing Original case
(September 25, 2017)
APPENDIX D: Order of the Northern District Court
dismissing case No# 17-cv-7714
(December 5, 2018
APPENDIX E: Order of the Northern District Court
order dismissing case No# 17-cv-7714
(Decemberl4,2018).
APPENDIX F: Entry of the Seventh Circuit of
Appeals Summary Judgment (September 18,
2018)
APPENDIX G: Order of the Seventh Circuit of
Appeals (September 18, 2018).
APPENDIX H: Entry of the Northern District Court
Fees paid (November 26, 2018)
APPENDIX I: Order of the Northern District Court
order denial of Forma Pauperis
(November 26, 2018)

7
vi

APPENDIX J: Order of the Seventh Circuit of
Appeals March 12, 2018 on behalf of Attorney
Rice
APPENDIX K: Entry of the Seventh Circuit of
Appeals Motion (September 20, 2018)
APPENDIX L: Opinion of the Seventh Circuit of
Appeals case law decided February 9,2018
TABLE OF AUTHORITIES
CASES
Stanley v. Goodwin, 475 F. Supp. 2b 10261032-33
(D. Haw. 2006)............................................................ ti
*
Haines v. Kerner, 404 U.S. 519, 520-21(1972) ...lI
Christy Akright u. Flex Financial Holding
2:08-cv-02037CM GLR(10t Cir.).................
Arkenbrandt v Richards 504 U.S.689 703 (1992).,l^\

iH

Bell Atl. Corp v. Twombly, 550 U.S.554,570

If

Claybrook Drilling Arthur R. Miller.............

Claybrook Drilling Co. v. Divanco, Inc., 336 F.2d 697 (
Charles Alan Wright & Arthur R. Miller, 11 Federal
__
Practice and Procedure Sec. 2785 at 15-16 (1973)...IP
Rappaport v. United States, 557F.2d 605
(1977)................................................................

[(o

Foremost Sales Promotions, Inc. u. Director, BATF,__
812 F.2d 1044. (7th Cir. 1987) (same)
lb
Glidden, 808 F.2d at 623....................

l (p

8

vn
Lewis v. Lenc-Smith Mfg. Co., 784 F. 2d 829
(1th Cir. 1986)................................

./S'

Herrera-Venegas,681 F.2d at 42

■J8T

Fedrik u. Bonzelet, 963F.2d 1258, 1261 (9th Cir)...I
Davis et, al, v. Bank of America N.A. et, al
RE: John H. Davis, No. 17-1732.

-oV

Cooke v. Jackson Nat. Life Ins. Co. 2018 U.S. Dist.
Lexis197908 (N.D.III. Nov. 20, 2018
STATUTES:
Section 35 of the Judiciary Act of 1789, 1 Stat. 73, 92
Gramm-Leach-Bliley Act 15 U.S.C. § 6801-6803
Fed. R. Civ. P. 12 (a)(2) or (3) Privacy Act U.S.C.
Sec. 552a.,
Illinois Constitutional Right of Privacy
Obstruction of Justice 18 U.S.C.A. §§ 1501-1517
18 U.S. Code § 242. Deprivation of rights under color
of law.
RULES
28 U.S.C. § 1915
Fed. R. Civ. P. 30 A (1)
Fed. R. Civ. 4 (l){e}
Fed. Rules of Civil Procedure 56
Federal Rules of Civil Procedure 12(b)(6)
FED. R. APP. P. 46
Supreme Court Rule 15, paragraph 2

9

PETITION FOR WRIT OF CERTIORARI
Petitioners Steven E. Davis, Steven Segura, Cherly
M. Malden, Cheryl Bell, Larry and Belinda Brown,
Louis G. Bartucci, Dennis F. and Susan R. Martinek,
DarryLand Anna Coney-Bell, Denise Woodgett,
Zdzislaw \Krajewski, Peggy L. Strong, Jeffrey R.
Sanders, Emmauel S. and Connie C. Bansas,
Geraldine Blanton,Mack Glover, Yvonne Singleton,
Ralph E. and Joan Holley,Ulsen and Georgia
Anderson, Elizabeth Robinson as of June 10, 2019
Respectfully petitions for a writ of certiorari to review
the judgment of the United States Court of Appeals
for the Seventh Circuit in this case.
OPINIONS BELOW
The opinion of the United States Court of Appeals for
the Seventh Circuit, Davis et, al, v. Bank of America
N. A. et, al, (7th Cir. 2019), is reproduced are App. A.
The district court’s opinion, never published on
Davis et, al, v. Bank of America N.A. is reproduced at
App B. The Seventh Circuit’s order denying
rehearing by panel is reproduced at App. B.
JURISDICTION
The Seventh Circuit entered judgment on March 14,
2018. Petitioners filed a timely motion for rehearing/
reconsideration in March 2018. The Seventh Circuit
denied the motion on March 14, 2018. This petition
denied the motion on March 14, 2018. This petition
of the United States Supreme Court, Rule 13.1.
This Court has jurisdiction under 28 U.S.C. § 1254(1).

10

RULES INVOLVED
Rule 56(a) and 4(l)(e) of the Federal Rules of Civil of
Procedure 56 (a) provides:
A party may move for summary judgment,
Identifying each claim or defense— or the part of
each claim or defense on which summary judgment is
sought.
The court shall grant summary judgment if the
movant shows that there is no genuine dispute as to
any material fact and the movant are entitled to
judgment as a matter of law.
The court should state on the record the reasons for
granting or denying the motion.
Procedure Rule 4(l)(e) provides:
(E) notify the defendant that a failure to appear and
defend will result in a default judgment against the
defendant for the relief demanded in the complaint;
STATEMENT OF THE CASE
This petition arises from a declaratory judgment action
Respondents seeking summary judgment for default.
Which was wrongfully denied. On October 25, 2017,
the Petitioners re-filed their original complaint as
Case No.l7-cv-7714 from previous casel6-cv-5993
which was dismissed without any statement
declaring “with or without prejudice” within The
Northern District of Illinois Eastern Division.
Against Respondents Bank of America Corporation,
Well Fargo & Company, HSBC Bank USA, N.A.,
US Bank Trust as Trustee for LSF9 Master
Participation Trust, JP Morgan Chase Bank N.A.,
Bank of New York Mellon USA, Ditech Financial
LLC., Deutsch Bank National Trust Company,
Solely in its capacity as Trustee, Bear Stearns

11

Companies, LLC; Citigroup Inc, Merscorp., Holdings
Inc., Mortgage Electronic Registration System Inc.,
SunTrust Banks, Inc., Irina Dashevsky, Locke
Lord LLP, and Richard A. Rice.
ARGUMENT
The merits were based on Respondents violation of
Breach of Mortgage Contract, Gramm-LeachBlileyAct 15 U.S.C.§ 6801-6803, Invasion of Privacy142 judicial Remedies and penalties for violating the
Privacy Act U.S.C. Sec. 552a., Illinois Constitutional
Right of Privacy, and Obstruction of Justice 18
U.S.C.A.§§ 1501-1517 aim to protect the integrity of
federal judicial proceeding section 1503.
Most courts will interpret a pro se litigant’s pleading
“liberally” and will not dismiss the complaint for
Mere technical violations of rules. Stanley v.
Goodwin, 475 F. Supp. 2d 1026, 1032-33
(D. Haw.2006) (citing Haines v. Kerner, 404 U.S. 519,
520-21 (1972)) Silence can only be equated with fraud
where there is a legal or moral duty to speak, or
where an inquiry left unanswered would be
intentionally misleading....Prudden, supra, p. 1033.
There was no reasoned opinion, but a pro se should
be especially entitled to have one in a federal case.
On October 26, 2017, Bank of America Corporation,
Wells Fargo & Company, US Bank Trust N.A., as
Trustee for LSF9 Master Participation Trust,
JP Morgan Chase Bank N.A., and Citigroup Inc.
Were served, their answer or otherwise plead was
rightfully due November 16, 2017. Bank New York
Mellon USA, and Irina Dashevsky of Lock
Lord LLP was served on October 30, 2017,
answer was rightfully due on November 22, 2017,

12

Merscorp Holdings INC., Mortgage Electronic
Registration Systems Inc., The Bear Stearns
Companies, LLC and Richard A. Rice, served on
November 17, 2017, and SunTrust Banks was served
on November 27, 2017, Ditech Financial LLC aka
Green Tree Financial Corp., were certified mail on
November 21, 2017.
The last Respondents’ answers were due no later
than December 6, 2017. Additionally, the
Defendants-Respondents had already been served
and failed to file a response in the time required by
civil rules and procedures resulting a default
judgment against them.
Respondents fail to respond to court order on
November 3, 2017, by Judge Charles P. Kocoras
Which states in parts: Lead counsel for each party is
required to attend the initial hearing. Failure to
appear at any schedule court hearing may
result in the dismissal of claims for want of
prosecution.
Respondent Bank of New York Mellon, and Ditech
Financial LLC, omnipotent. These scrupulous
believers really believe they can neglect Fed. R.
Civ. P. 30 a 1. See Christy Akright v. Flex Financial
Holding 2:08-cv-02037 CM-GLR (10* Cir.)
articulates the tension in default cases between
enforcing procedural rules and observing fairness:
[The Court does not] favor default judgment...
purely as Penalty for delays in filing or other
procedural erred However, a workable system of
justice requires that litigants Not be free to appear
at their pleasure.

13

We therefore must hold Parties we therefore must
hold Parties and their attorneys to a reasonably high
standard of diligence in observing the court’s rules of
procedure. The threat of judgment by default serves
as an incentive to meet this standard.]
Whereas, Respondent Attorney Richard Rice filed his
Pro Vic appearance with all due respect was once the
Attorney-in-fact on behalf of the Petitioners.
As of October 25, 2017, he became a member of the
Respondents for conspiring with the Respondents
against his own clients. Attorney Richard A. Rice
intentionally disregarded his needed appearance on
court dates December 5, and 14, 2017.
Respondent failed his legal responsibility as officer
of the Court and deliberately acted intentionally
to injure the Petitioners.
There was no attempt on the Respondent’s part to
Seek any settlement with the Petitioners as per the
Court Order nor any communication to where any
Possible settlement was in existence, with the
Respondents. As if they had prior knowledge of the
Court’s intention to dismiss Petitioners case without
any recourse on December 5, 2017.
A Pro se Petitioners complaints, if construed
liberally, prevent a judge from using hyper critical
misrepresentations and arbitrarily ignoring the facts
to punish pro se plaintiffs by hinging their rights, or
the denial of them, on the pleading alone rather than
the irrefutable facts.
This is so “common sense”, rather than prejudice,
prevails. Also, in the interest of justice, the judge has
the flexibility to request additional facts or evidence
or a more definite statement before making an

14

arbitrary adverse judgment without context and
devoid of common sense.
PLEADING §103 Importantly, said the Court,
plausibility is not an invitation for judges to engage
in probabilistic reasoning to weed out improbable,
but well-pleaded complaints.
Therefore, the Trial Court judge misapplies his own
ruling see Arkenbrandt v. Richards 504 U.S. 689 703
(1992) and BellAtl. Corp v. Twombly, 550 U.S. 544,
5 70 without a reasoned opinion as supporting their
position. Judge Kocoras wrongfully disregarded our
plead in open court by his own words if any party fails
to appear will result in a dismissal of claims for want
of prosecution.
The court, rather than helping the pro se plaintiffs
exercise their rights, is acting as an adversary as if
they are employed by the Respondents in that
capacity.
Petitioners were unequivocally deprived of that "Due
Process". As the Petitioners, we were totally numbed,
emotionally harmed which has brought a great deal
of stress and deep depression to the Petitioners’
who are 90% Senior Citizens’? Sad to say we have lost
(Deceased) three of the Petitioners’ since the
beginning of this civil action.
After Petitioners were wrongfully denied on
December 5,2017, they immediately filed for
reconsideration on the 14th of December. Whereas,
the Respondents Ditech Financial LLC, Bank of New
York Mellon, and Attorney Richard A. Rice, this was

15

His and their opportunity, on the one hand to
reconsider theirs’ and his legal responsibility as
officers of the court and do the right thing and on the
other, to file any appropriate motion to show cause,
to show that the Petitioners complaint was frivolous.
If the Petitioners would have defaulted in any shape
form or fashion for failure to follow court procedure
this would have brought penalties on the Petitioners’.
Without any hesitation from the Court and the
Respondents.
During the procedure on December 5, and, 14, 2017,
Petitioners were the only party to address the Judge
Kocoras court. Judge Kocoras response was "your
relief-—we are on the 23rd floor. The Court of
Appeals is on the 27th floor. And that is where you
have to go to seek relief from my ruling. ”
Petitioners believes that the trial Court erred in the
law by deliberately dismissing Petitioners case
without justifying the dismissal.
See The final judgment in a case should be complete
and self-contained. Claybrook Drilling Arthur R.
Miller, 11 Federal Practice and Procedure Sec. 2785
at 15-16 (1973). See also Rappaport v. United States,
557 F.2d 605 (1977) (dismissing an appeal from
minute order that grants a motion for summary
judgment but does not explicitly declare the case
over); Foremost Sales Promotions, Inc. v. Director,
BATF, 812 F. 2d. See The final judgment in a case
should be complete and self-contained Claybrook
Drilling Co. v. Divanco, Inc., 336 F.2d 697 (10th
Cir.1964); Charles Alan Wright & Arthur R. Miller,
11 Federal Practice and Procedure Sec. 2785 at 15-16

16

(1973). See also Rappaport v. United States 557 F.2d
605 (1977) (dismissing an appeal from minute order
that grants a motion for Fed. R. Civ. P. 12(b)(6),
should say:" Defendant's motion to dismiss is with
prejudice." That indicates both the ruling and the
disposition--the latter being the more important.
The Trial Court Doc [s]# [68] [78] Notice of docket
Entry didn’t clarify if the Respondents/Defendants
Motion to dismiss was granted. In a separate
document entitled “Judgment in civil case” The Court
checked box other: This case is dismissed with
prejudice and the last box checked X decided by judge
Charles P. Kocoras (hereinafter “Judge Kocoras”) A
document stating "Insofar as the court has
determined X it need not consider Y" is insufficient.
It refers the court back to the opinion, it does not
state how "far" the court has determined X, it does
not state the disposition of the motion, and does not
terminate the case. It contains neither an award of
relief nor a declaration that the case is concluded. It
is not a final judgment. See also Glidden, 808 F.2d at
623.
Therefore, the facts given the Petitioners is pleading
for mercy that the United States Supreme Court
would reverse and remand Petitioners appeal.
“Every truth passes through three stages before it is
recognized in the first it is ridiculed in the second it is
opposed in the third it is regarded as self-evident”
... Arthur Schopenhaue
Everyone has the constitutional right to proceed
without counsel. The reasoning behind that decision

17

means that the Constitution requires our justice
system to be neutral towards the self-represented
litigants. That in turn means that the courts must
offer a level playing field for the represented an
unrepresented alike, consistent with basic principle
of fairness.
December 27, 2017 Petitioners filed their first
“Notice of Appeal” within the Seventh District Court
of Appeal, as case No. 17-3656 for failure to answer
or otherwise plead and appear.
Ditech Financial LLC, and Bank of New York Mellon
Trust have intentionally failed to respond to the filed
“Notice of Appeal”. The Appeal Court recognized they
were listed as Respondents/Defendants.
The Court Clerk failed to submit “Notice of Entry for
Default”. November 27, 2017, after Petitioners filed
their motion for default. Motion for default was also
filed on March 17, 2018, against Respondents Ditech
Financial LLC, Bank of New York Mellon Trust, and
Richard A. Rice. Within the Appeal Court It was
Denied that same date.
The court, rather than helping the pro se plaintiff
exercise their rights, acted as an adversary as if they
are employed by the defendants in that capacity.
A third motion for default and summary judgment
was also filed on September 18, 2018, against
Respondents whereas, the Court unduly failed to
respond.

18

On June 25, 2018, the appeal was dismissed claiming
that the remaining 34 Petitioners had failed to
sign appeal notice. The Appeal was filed by Petitioner
Sonya Davis on behalf of all members. She was
appointed in open court by the Judge Charles P
Kocoras Court as spokesperson for the 33-original
class-members’ as per transcript dated 06/06/2017
verbatim: Page 13 lines 15 Court: So, we will treat
you as the spokesperson for the group. Upon filing the
appeal, the terminology used by Petitioner Sonya
Davis “behalf of herself and all Plaintiffs members”
it was also explained in detail that Judge Kocoras
appointed Sonya Davis.
If the remaining Petitioners’ signatures were needed
then the remaining Petitioners should have been
given an opportunity to amend their notice of appeal
see Lewis v. Lenc-Smith Mfg.Co., 784 F. 2d 829
(7th Cir. 1986) According we strike both the
Appearance of Anna Marie Wright in this appeal and
the brief that she filed. Lewis, since she is not
represented by counsel must take responsibility for her
appeal. See Herrera-Venegas, 681 F.2d at 42. As such,
Lewis is required to sign the notice of appeal. This is
equal justice!!
In fact, some courts will go so far as to advise the pro
se litigants of the defect in their pleadings and give
them an opportunity to amend before dismissal.
Fedrik v. Bonzelet, 963 F.2d 1258, 1261 (9th Cir.
1992)).
The Respondents were given leniency to amend their
Jurisdictional Statement Whereas, Respondent
attorney Richard A. Rice was given many leniency

19

opportunities to amend and submit his court ordered
documents. Whereas, Petitioners’ had no voice.
“CONSTITUTIONAL RIGHTS”
whereas, they were denied every motion that they
filed. The Court Clerk misled the Petitioners that
everything they had done was “Complete and
Correct”.
The Seventh Circuit denied rehearing on the
question, on July 17, 2018, Petitioners filed a
petition for rehearing and rehearing en banc which
was also denied without any opinion. A motion was
filed seeking an opinion which also was denied.
On August 6, 2018, (19) Petitioners filed a second
“Notice of Appeal” arising from the same civil case
17-cv-7714 "Davis et, al, v. Bank of America N.A. et,
al," as well as motion to show cause. These appeals
Were filed separately as case Nos. #18-2701-18-2719.
August 15, 2018, Appeal Court on its own initiative
consolidated these appeals for purposes of briefing
and disposition as Doc# [4], August 22, 2018, (12)
Petitioners’ by court order filed their docketed
fees of $505.
Six of the (19) Petitioners’ filed on their own behalf
forma pauperis pursuant to 28 U.S.C.§ 1915. After,
the initial 30-days Petitioners assumed that these
applications were approved there was no response
from the court.
August 27, 2018, Petitioners were ordered to file a
brief “memorandum” stating why these appeals
should not be dismissed for lack of jurisdiction.

20

September 7, 2018, all the Respondents attorneys-infact except Rice responded to Petitioners
“memorandum” per the court order on September 7,
2018, Petitioners were ordered to file a “Docketing
Statement” to show “Cause” which was due by
September 21, 2018. Petitioners filed a motion for
“summary judgment” and to “strike,” Respondents
response to Petitioners’ “memorandum”.
These motions went unanswered by the appeal
courts. At that point...the Petitioners knew the fight
for justice and their Constitutional Rights was
hopeless.
The Petitioners knew that Rice was literally being
unseen and unheard by both the courts and the
parties. Therefore, the Petitioners had no choice but
to enquire about any kind of discipline actions taken
against him.
September 21, 2018 motion to discipline Attorney
Richard A. Rice for refusal to comply with court
orders; Appeal Court reply order on September 20,
2018, the Court refusal to show Petitioners that
Disciplinary action has been enforced against Rice.
Petitioners’ were informed that the motion seeking
answer for Rice would be docketed only. Petitioners
later discovered that the Appeal Court was trying to
cover-up Rice’s obstructive and unprofessional
behavior by allowing him to respond on his own time;
to several courts orders.
This a brief sample of the number of times the Appeal
Court had to request documents from Attorney Rice:
April 2, 2018, and April 13, The Appellee brief was

21

electronically filed on April 2, 2018, April 24, 2018,
This show how repeatedly appeal court ordered
attorney Rice to filing his motions.
Reviewing these facts shows how the Appeal Court
separated facts from fiction in RE: John H. Davis,
No. 17-1732 We issued an order directing Attorney
John H. Davis to show cause why he should not
be subject to discipline for failure to comply with court
rules and for unprofessional conduct, including his
refusal to heed straightforward directions from a
district judge. Davis filed his response, but it does not
alleviate our concerns about his professional
competence. We, therefore, conclude that Davis should
be removed from the bar of this court. See FED. R.
APP. P. 46.
The Appeal Court had shown attorney Richard A.
Rice leniency despite that he was just as much
responsible for his own action regarding this civil
matter. This was unfair and unjust to both the
Petitioners and the other Respondents. It appears
that the Appeal Court deliberately showed favoritism
toward Richard A. Rice.
This was the second beginning of Petitioners
devastation. 90-days later Petitioners uncovered the
truth behind the forma pauperis whereas, Judge
Kocoras HAD NO INTENTION on responding to the
Forma pauperis affidavits.
November 23, 2018, One of the seven Petitioners’
borrowed $505 for her filing fees. Petitioners’
discovered that the applications were literally sitting
on Judge Charles P. Kocoras clerk desk for a period
of 90-days.

22

November 26, 2018 four of the seven Petitioners
Processed their payments with the Northern District
Circuit Court Clerk’ office between the hours of 3 &
4:03 p.m. After speaking to the Chief Clerk Thomas
G. Bruton informing him about the concerns
Petitioners had concerning their forma pauperis
application. Since this was the “Thanksgiving
Holiday” the judges were off duty that day. Including
Judge Kocoras at approximately 4:28 Petitioners
received this email;
usdc_e cf_ilnd@ilnd. uscourts. gov: Notice
of Electronic Fifing The following
transaction was entered on 11/26/2018 at
4:28 PM CST and filed on 11/26/2018
Case; Name Davis et al v. Bank of America
Case Number: l:17-cv-07714 filer:
WARNING: CASE CLOSED: 12/5/2017
Document Number: 208 Doc Text.
Whereas, the Petitioners had successfully filed their
fees prior to this order. Judge Kocosar filed his order
denying the forma pauperis affidavits. Petitioners
knew the Chief Clerk made that call. Petitioners also
filed that same day “Motion to Withdraw” two
Petitioner’s Yvonne Singleton who has stage-four
cancer, Petitioner’s Georgia Anderson fighting to
save her feet from amputation.
These two Petitioners’ Requested to “Withdraw” from
The case because they refused to hinder the case from
moving forward.
November 30, 2018 Appeal Court unconstitutional
Denied the Petitioners/Appellants rights to
withdraw. Regardless if they or the Petitioners’

23

members could afford to pay the fees on behalf of
these two Petitioners. They were totally denied that
“Due Process”.
Judge Kocoras claimed within his order filed on
November 26, 2018. Criticizing Petitioners for
re-filing their complaint on October 25, 2017. There
was no quoting or paraphrasing any Federal Rules or
Regulations that the Petitioners’ violated.
Also, claiming that the Respondents file a motion
Prior to December 5, 2017, court status for extension
of time. Whereas, the Respondents failed to exercise
that right. Judge Kocoras refused to execute his own
order. Without any recourse, Judge Kocoras had
every intention on dismissing Petitioners case
without any regards to Petitioners.
Judge Kocoras also stated within his order that the
Petitioners/Plaintiff failed to appeal the denial
for the forma pauperis pursuant Fed. R. App. P.
24(a)(5). The Petitioners would have appeal within
the 30-day timeline if their forma pauperis would
Have been ruled on within that same 30-days
requirement timeline. How can the Court determine
such? an unfair ruling toward the Moving party.
And give praises to the defaulting Respondents?
Therefore, this Court should grant Petitioners
“writ of certiorari”.
Prior to Petitioners’ dismissal on or around March 5
2019, Petitioner Sonya Davis and Class Members
received by United Postal notice of Ditech Financial
LLC filing for Chapter 11 Bankruptcy Protection on
Februaryll, 2019.

24

The notice was addressed to Sonya Davis the
representative for the Class Members, followed-by a
“notice of claim” whereas, Petitioner Sonya Davis
filed it on behalf of herself and Petitioners Members
motion for relief from the stay, notice of claim as well
as notice of appearance.
A copy of this motion was filed with “The United
States Bankruptcy Southern District of New York
and the United States Court of Appeals for the
Seventh Circuit as case no. 19-10412 (JLG). The
Court date was scheduled for April 11, 2019.
The Petitioners felt as if that was the legal hold-up
For the court to give notice of dismissing of the
Final appeal.
Petitioners later discovered that Ditech Holding
Corporation aka Ditech Financial LLC notified the
Court and the Respondents in September 2018,
concerning the Chapter 11 filing. Petitioners were
the last to know. Petitioners’ also discovered that on
November 30, 2017, after Ditech was served they
filed Chapter 11 Bankruptcy protection
unfortunately, Petitioners were unaware of these
filing and Petitioners were not a party of that filing.
March 14, 2019, (19) Petitioners “Notice of
Reconsideration” was wrongfully dismissed for
“Lack of jurisdiction”. On the pretense of 244-days.
If this was considerate equal justice, then Petitioners
should have received the same treatment as in the
case Cooke v. Jackson Nat. Life Ins. Co. 2018 U.S.

25

Dist. Lexis 197908 (N.D. III. Nov. 20, 2018) the
insured filed another appeal (18-3527), which we
resolved using the briefs filed in its initial appeal (172080). Its further states in part: This Court believes
that this case could have resolved on the Plaintiff’s
motion for Judgment on the pleading one year ago,.
Petitioners insert how can the Appeal Court grant
one party to refile their appeal after one year and
reverse their decision. Whereas, another Petitioners’
were denied after 244-days?
When in fact the original appeal was filed
accordingly. RE: Appellee/Plaintiff Norma L. Cooke
first appeal to the Court states in part: There remains
the rule that a judgment must provide the relief to
which the prevailing party is entitled.
Petitioners believe that the Court erred at law based
On the above fact Respondents refusal to
communicate with Petitioners when they
unequivocally defaulted.
Whereas, Bankruptcy Court stated in open court
Ditech Holding Corporation collectively settle with
Petitioners’.
Once again Petitioner’s Sonya Davis reach-out to the
Respondents informing them of the bankruptcy
Actions and submitted a copy of the amended
“Notice of Claim” Respondents’ have disrespectfully
refused to communicate. As if, Petitioners’ had some
unknown contagious disease as they refused to have
any contact with Petitioners’. The most important
part is that the Court allows this disrespectfully

26

display to take place without repercussion to the
Respondents.
The Petitioners were unduly deprived 18 U.S. Code
§ 242. Deprivation of rights under color of law.
The Pro Se Petitioners’ pray on the mercy of United
States Supreme Court Petitioners be Entitled to
Equal Justice and able to exercise our
“CONSTITUTIONAL RIGTHS”.
To prevent future Petitioners’ from meeting the same
faith as the Petitioners in this case.
We the Petitioners pray that our case will not cause
Harm to other litigants.
This case will set the Propounded precedent for
complaints to go unanswered by Defendants’.
CONCLUSION
The petition for writ of certiorari should be granted.
Respectfully submitted,

34

By PRO SE PETITIONERS:
Zdzislaw Krajewski
2501 N. 73 Av.
Elmwood Park, IL
773=612-4373 . ,

Larry and Belinda Brown
2850 Chase Park Drive Apt. C
Homewood, IL 604
708-785-7706

Steven E. Davis
1752 W. Edmaire
Chicago, IL 60643
773-44^27^2
Elizabeth Robinson
805 7th Ave. SE
Austin, MN 55912

a 7'

1-787/

Cheryl Bell
14209 S. Edbrooke Av
Riverside, IL 60827
18-

Louis G. Bartucci
125 Boardwalk PI
Apt. 302
Chicago, IL 606
773-81^-100^3

Peggy L. Strong
270 Duke Dr.
Lynwood, IL 60411
^ 708-682-5417
7Qt'loTL.'io Ht*fJ
Geraldine Blanton

8420 Lakeside Dr Apt. 2b
Fort Wayne, IN 46816
708-707-4924
eV

6 Cheryl M. Maldi
iag^j IL 60616

i Jg/MBfry Sanders
1026OtLouis Ave.

Denise Woodgett
1528 N. Lee Blvd
gflkley, JL 60163

312-485-9845

2-605-0123

Dennis F. and Susan R. Martinek
123 Gloveland
Riverside, IL 60546

Darryl and Ann Coney-Bell
7716 S. St. Lawrence
Chicago, IL 60619

o

;

60
[apt 102}
847-707-9369

Mack Glover
2305 Holiday Terrace Apt. 135
Lansing 60438
678-733-7771

Yvonne Singleton
879 Honey Ln
Crete, IL
708-296-3329

35

Emmauel S. and Connie C. Bansa
2219 Travers Ln.
Flossmoor, IL 60422
708,9,55-6989
,

Steven Segura
3925 Triumvera Dr. Apt. 7G
Glenview, IL 60025
a
7^-747-021^

Ralph E. and Joan M. Holley
3075 Book Rd.
Naperville, IL 60567
630-747-6151
_ %

Ulsen and Georgia Anderson
740 Old Meadow Rd.
Matteson, IL 60443
708-200-2096 —

7^

-v

35

